March 13, 2008

MANUEL ARGUELLO
ACTING DISTRICT MANAGER, RIO GRANDE DISTRICT

SUBJECT: Audit Report – Delayed Mail at the Waco Processing and Distribution
         Facility (Report Number NO-AR-08-002)

This report presents the results of our self-initiated1 audit of delayed mail at the Waco
Processing and Distribution Facility (P&DF) (Project Number 07XG038NO000). Our
objective was to determine whether the Waco P&DF processed mail in a timely manner.
Please refer to Appendix A for additional information about this audit.

Conclusion

The Waco P&DF has significantly reduced the amount of delayed mail, but continues to
have difficulties with the timely processing of Standard Mail®, resulting in delays. The
following summarizes our findings and recommendations regarding the timeliness of
mail processing at the Waco P&DF.

Timeliness of Mail Processing at the Waco Processing and Distribution Facility

Since fiscal year (FY) 2005, the Waco P&DF has had difficulties with the timely
processing of Standard Mail, resulting in mail delays.2 The Waco P&DF has
significantly reduced the amount of delayed mail since March 2007. (See Appendix B.)
However, the Waco P&DF continues to experience periods with relatively high volumes
of delayed Standard Mail in September and October of 2007 and compared to similarly-
sized facilities. (See Appendixes B and C.)




1
  In June 2007, the U.S. Postal Service Office of Inspector General (OIG) Office of Investigations responded to
Congressional allegations that Waco P&DF management intentionally delayed and misreported delayed mail
volumes. OIG investigators reviewed these allegations and found evidence of delayed mail, but found no evidence of
intentional delays or misreporting. They closed this case on July 27, 2007.
2
  Although we looked at all classes of mail, we found that only Standard Mail had significant volumes of delayed mail.
Delays in all other mail classes combined represented only about 8 percent of all delayed mail during FY 2007. We
found that First-Class and Priority Mail® were being processed in a timely manner, often ahead of the clearance time.
Delayed Mail at the Waco Processing                                                                   NO-AR-08-002
 and Distribution Facility




    •    In FY 2005, the Waco P&DF had 4.3 million pieces of delayed mail. By FY 2007,
         total delayed mail volumes had increased more than tenfold, to 47 million pieces.

    •    The bulk of this increase was in Standard Mail, which increased from
         approximately 3 million pieces in FY 2005 to more than 44 million pieces in
         FY 2007.

    •    In FY 2005, the Waco P&DF’s delayed mail volumes ranked 18th out of
         49 Group 5 facilities.3 By FY 2007, this ranking had fallen to last among the
         49 facilities. (See Appendix C.)

The U.S. Postal Service has well-established criteria for timely mail delivery. 39 U.S.C.
§ 101, Part 1, Chapter 1, states that the Postal Service “. . . shall provide prompt,
reliable, and efficient services to patrons in all areas. . .” In addition, the Postal Service
Strategic Transformation Plan, dated September 2005, states, “The Postal Service will
continue to provide timely, reliable delivery to every address at reasonable rates.”

Further, Postal Service Handbook PO-420, Small Plant Best Practices Guidelines,
November 1999, requires that all facilities should have an operating plan showing mail
arrival times. A facility uses its operating plan to efficiently process and move mail from
one operation to the next and to determine operational start-ups and staffing levels. It
also requires that supervisors ensure mail transport equipment is not allowed to
accumulate.

In addition, the webMCRS Training/User Guide, September 24, 2007 states, “ALL mail
volume, regardless of the amount, must be counted, in the respective categories,
including On-Hand (OH), Plan Failure (PF), and delayed volume categories ….”

These problems occurred because:

    •    Management oversight was inadequate. From June 2004 through November
         2007, the Waco P&DF had 10 plant managers and acting plant managers, and
         some managers had tours of 4 months or less.4

    •    The operating plan did not include a mail arrival profile, as required.5




3
  Mail processing facilities are divided into seven groups according to mail volume, with Group 1 plants the largest
and Group 7 plants the smallest.
4
  Waco P&DF management has already taken action to correct these problems; therefore, we are not making
recommendations on this issue.
5
  An operating plan requires a current mail arrival profile, which is determined by the time the mail is received. The
mail arrival profile is used to determine operational start-ups and staffing levels. (Handbook PO-420, Small Plant
Best Practices Guidelines, November 1999, Chapter 5.)




                                                           2
Delayed Mail at the Waco Processing                                                                NO-AR-08-002
 and Distribution Facility


    •    Employees allowed empty mail transport equipment to accumulate, which
         prevented full use of the processing floor for staging and processing mail. (See
         Appendix D, Illustration 1.)

We also found:

    •    The Waco P&DF had an insufficient number of managers.

    •    Management did not provide sufficient training on color-code procedures for
         processing mail in a timely manner.6

    •    Employees did not practice First-In, First-Out (FIFO) procedures when staging
         mail. On September 26 and October 30, 2007, we noted that employees were
         not processing mail in the order received and were not processing all mail in a
         timely manner. (See Appendix D, Illustration 2.)

As a result of these deficiencies, Standard Mail was unnecessarily delayed. During the
audit, Waco P&DF management took action to correct the latter three causes above.
Therefore, we are not making any recommendations in these areas.

We recommend the Acting District Manager, Rio Grande District, direct the Plant
Manager, Waco Processing and Distribution Facility, to:

    1. Ensure supervisors oversee the processing and monitor delayed mail on a
       regular basis and develop action plans, if necessary, to ensure the timely
       processing of Standard Mail.

    2. Develop and implement a mail arrival profile to align current staff assignments
       with mail flow as part of the operating plan.

    3. Relocate accumulated mail transport equipment to allow full use of the mail
       processing floor.

Management’s Comments

Management implemented the report recommendations. The District Manager stated
training was conducted on February 15, 2008, for all plant managers, including the
Waco P&DF, on critical processes. He further stated the Waco P&DF managers are
monitoring operations and making adjustments as necessary to ensure minimal mail
delay. He also indicated the Waco P&DF mail arrival profile was updated in January
2008, and staff realignment will be completed by September 2008. Finally,
management relocated excess mail transport equipment to a tent at the Waco P&DF

6
 The Postal Service uses color-coding to facilitate the timely processing, dispatch, and delivery of Standard Mail to
meet established service standards. The purpose of color-coding is to sequence the mail to ensure FIFO processing.




                                                         3
Delayed Mail at the Waco Processing                                                                    NO-AR-08-002
 and Distribution Facility


and have procedures in place to excess this equipment to the Mail Transport Equipment
Service Center. We have included management’s comments, in their entirety, in
Appendix E.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendations. Management’s
actions taken and planned should correct the issues identified in the report.

Other Matters: Web Mail Condition Reporting System Issues

The Postal Service uses the WebMCRS, formerly the Daily Mail Condition Report, as a
repository for information on the results of mail processing operations. We noted that at
the Waco P&DF, PFs were not being counted and recorded properly.7 For example:

    •    On more than one occasion, employees did not correctly count the mail. For
         example, on September 26, 2007, a Supervisor, Distribution Operations (SDO) at
         the Waco P&DF recorded mail as PF on a previous day, but did not count it as
         PF on the following day’s report. However, the SDO at the Waco Annex correctly
         counted and recorded PFs each day the mail was still in the building.

    •    On September 26, 2007, a SDO at the Waco P&DF used a blank piece of paper
         to record mail counts. Several days later, the SDO used a preprinted count form
         developed at the Waco P&DF. On October 31, 2007, another SDO used a
         scratch sheet of paper to document the mail count.

    •    A SDO counted the number of individual trays of mail and noted this number on
         the count sheet. However, since most of the mail trays were not filled to
         capacity, we determined that the entries entered into WebMCRS overstated the
         actual volume. In addition, an entire section of mail (sectional center letters) was
         not counted on the day of our observations.

    •    On October 31, 2007, a SDO did not count mail as delayed when the mail had
         been counted as delayed the previous day.

These problems occurred because:

    •    Training was insufficient.
    •    There was no standardized form for recording the daily mail count.
    •    Definitions of PF or delayed processing were misinterpreted.

As a result, Waco P&DF management could not rely on data in the WebMCRS to
achieve operational targets or analyze trends. Following our discussion of this issue at
7
 A PF occurs when committed mail is entered into a line item operation prior to its critical entry time but is not
processed by the line item operation clearance time.




                                                           4
Delayed Mail at the Waco Processing                                      NO-AR-08-002
 and Distribution Facility


the exit conference, area staff provided WebMCRS and color code training to
employees at the Waco P&DF on November 14 and 15, 2007. In addition, P&DF
management implemented the use of standard forms at the Waco P&DF and the Waco
Annex to record daily mail counts.

We appreciated the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert J. Batta, Director,
Network Processing, or me at (703) 248-2100.
  E-Signed by Colleen McAntee
 ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Ellis A. Burgoyne
    David E. Williams
    William C. Rucker
    Katherine S. Banks




                                          5
Delayed Mail at the Waco Processing                                                                  NO-AR-08-002
 and Distribution Facility


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Waco P&DF is located in the Rio Grande District of the Southwest Area. The Waco
P&DF also has a nearby annex (Waco Annex) which processes mail. The Rio Grande
District consists of facilities at Waco, Austin, Corpus Christi, San Antonio, El Paso,
Midland, and McAllen, Texas. The Waco P&DF workload for FY 2007 was over 339
million first handling pieces processed using approximately 395,000 workhours.

The Postal Service considers mail delayed when it is not processed or dispatched to
meet its programmed delivery day. The Postal Service recognizes that some delayed
mail is expected and rates the most successful small plants as those with an average
delayed mail volume of 4,000 or fewer pieces. The Postal Service defines a service
standard as:

     A stated goal for service achievement for each mail class. A service
     standard represents the level of service that the United States Postal
     Service strives to provide its customers. . . .8

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Waco P&DF processed mail in a timely
manner. To achieve this objective, we observed processing operations at the Waco
P&DF and the Waco Annex during the week of September 24 and again the week of
October 29, 2007; analyzed mail volume, service scores, and delayed mail trends; and
interviewed Postal Service officials and employees. We used computer-processed data
from the following systems:

    •    Web Enterprise Information System
    •    Web End-of-Run System
    •    WebMCRS
    •    Management Operating Data System (MODS)
    •    Enterprise Data Warehouse

We did not test controls over these systems. However, we checked the reasonableness
of results by confirming our analyses and results with Postal Service managers and
multiple data sources. In addition, an OIG review of MODS concluded that the data
contained in this system was valid and reliable at the plant level.9

We conducted this performance audit from July 2007 through March 2008 in
accordance with generally accepted government auditing standards and included such
8
  The standards allow for ranges by mail classes, as follows – Priority Mail: 1-3 days; First Class Mail: 1-3 days;
Periodicals: 1-7 days; Package Services: 2-9 days; and Standard Mail: 3-10 days.
9
  Management Operating Data System (Report Number MS-AR-07-003, dated August 21, 2007).




                                                          6
        Delayed Mail at the Waco Processing                                           NO-AR-08-002
         and Distribution Facility


        tests of internal controls as we considered necessary under the circumstances. Those
        standards require that we plan and perform the audit to obtain sufficient, appropriate
        evidence to provide a reasonable basis for our findings and conclusions based on our
        audit objective. We believe that the evidence obtained provides a reasonable basis for
        our findings and conclusions based on our audit objective. We discussed our
        observations and conclusions with management officials on October 31, 2007, and
        included their comments where appropriate.

        PRIOR AUDIT COVERAGE


       Report Title                     Report Number          Issued Date       Audit Recommendations

Timeliness of Mail                       NO-AR-07-012       September 28, 2007 We recommended
Processing at the Chicago,                                                     management provide
Illinois Cardiss Collins                                                       consistent, quality
Processing and Distribution                                                    supervision and training;
Center                                                                         improve planning; make
                                                                               employees accountable;
                                                                               and continue monitoring
                                                                               and adjusting mail
                                                                               processing operations to
                                                                               ensure the timely
                                                                               processing of mail.
Timeliness of Mail                       NO-AR-07-001        February 9, 2007  We recommended
Processing at the Los                                                          management correct
Angeles, California                                                            deficiencies in the
Processing and Distribution                                                    processing of Periodicals
Center                                                                         and Standard Mail.
Mail Processing at the                   NO-AR-07-007         August 6, 2007   We recommended
Southeastern Pennsylvania                                                      management implement
Processing and Distribution                                                    procedures for finalizing
Center                                                                         the Southeastern
                                                                               Processing and Distribution
                                                                               Center’s working mail at
                                                                               other facilities when
                                                                               volume exceeds capacity
                                                                               and instruct plant
                                                                               managers to process mail
                                                                               using the FIFO method.




                                                        7
Delayed Mail at the Waco                                                                                                                                     NO-AR-08-002
 Processing and Distribution Facility


                                                                                                APPENDIX B

                                                          TOTAL DELAYED STANDARD MAIL AT THE WACO P&DF
                                                                                                10
                                                              OCTOBER 2006 THROUGH OCTOBER 2007


                          12,000,000

                          10,000,000
       Number of Pieces




                           8,000,000

                           6,000,000

                           4,000,000

                           2,000,000

                                  0




                                                                                                                                                         ER
                                                                  R
                                                     ER
                                          R




                                                                                                                                                                      R
                                                                                            Y




                                                                                                                              E
                                                                                                                  IL




                                                                                                                                              ST
                                                                                                     H




                                                                                                                                    LY
                                                                             Y
                                                                BE




                                                                                                                        Y
                                        BE




                                                                                                                                                                    BE
                                                                                        R




                                                                                                                              N
                                                                                                 RC




                                                                                                              R
                                                                            AR




                                                                                                                                                         B
                                                                                                                        A
                                                     B




                                                                                                                            JU




                                                                                                                                              U
                                                                                        A




                                                                                                                                  JU




                                                                                                                                                       EM
                                                               M




                                                                                                             AP




                                                                                                                       M
                                                    M
                                       TO




                                                                                                                                                                   TO
                                                                                    U




                                                                                                                                          G
                                                                                                 A
                                                                        U
                                                              E
                                                  VE




                                                                                   BR




                                                                                                                                         AU
                                                                                                M
                                                                        N




                                                                                                                                                    PT
                                                          EC
                                   C




                                                                                                                                                                C
                                                                      JA
                                  O




                                                                                                                                                               O
                                              O




                                                                                 FE




                                                                                                                                                   SE
                                                          D
                                              N




                                                                                                     Delayed Standard Mail
Delayed Standard Mail volumes decreased from over 10.7 million mailpieces in March 2007 to about 700,000 in August
2007, a decline of more than 93 percent in 5 months. However, the Waco P&DF continues to experience relatively high
degrees of delayed mail as shown in September and October of 2007.




10
     We added October 2007 to the FY 2007 data to show a decrease in delayed mail during our fieldwork.




                                                                                                         8
Delayed Mail at the Waco                                                      NO-AR-08-002
 Processing and Distribution Facility


                                            APPENDIX C

                   DELAYED PROCESSING TRENDS, FY 2005 – 2007
                                                              11
             WACO P&DF MAIL VOLUME COMPARED TO GROUP 5 AVERAGE

                                Delayed Processing Trend – All Classes
                                        FY 2005         FY 2006            FY 2007
     Group 5 Average                  11,685,446       13,175,009         12,648,299
     Waco P&DF                         4,344,218       16,749,706         47,762,592


                              Delayed Processing Ranking – All Classes
                                       FY 2005         FY 2006             FY 2007
     Waco P&DF                      18th out of 49   35th out of 49      49th out of 49


                     Delayed Processing Trend – Standard Mail
                              FY 2005          FY 2006                     FY 2007
     Group 5 Average         9,550,006       10,851,221                   10,675,696
     Waco P&DF               2,704,044       14,937,715                   44,192,539


                            Delayed Processing Ranking – Standard Mail
                                      FY 2005         FY 2006            FY 2007
     Waco P&DF                     14th out of 49   38th out of 49     49th out of 49




11
     There are 49 plants in Group 5.


                                                  9
Delayed Mail at the Waco                                                       NO-AR-08-002
 Processing and Distribution Facility




                                        APPENDIX D

                             MAIL PROCESSING AT THE WACO ANNEX




Illustration 1: Empty mail transport equipment staged on the Waco Annex processing floor.




Illustration 2: Mail containers with color-coded tags showing multiple colors of unprocessed
Standard Mail at the Waco Annex. Mail was not staged by colors and was not processed using
the FIFO method.




                                              10
Delayed Mail at the Waco                                        NO-AR-08-002
 Processing and Distribution Facility




                                              APPENDIX E

                                        MANAGEMENT’S COMMENTS




                                                  11
Delayed Mail at the Waco                     NO-AR-08-002
 Processing and Distribution Facility




                                        12
